No. 20-1968
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
DANNY R. PENNEBAKER,
Petitioner-Appellant,
v.
RANDEE REWERTS, Warden,
Respondent-Appellee.

FILED

-Dec 01,2020
DEBORAH S. HUNT, Clerk

}
)
)
)
)
)
)
)
)
)

ORDER

Before: MOORE, ROGERS, and GRIFFIN, Circuit Judges.
“Every federal, appellate court has a special obligation to satisfy itself ... of its own
jurisdiction . ...” Alston v. Advanced Brands & Import Co494 F.3d 562, 564 (6th Cir. 2007)
iquoting Steel Co. v. Citizensfor a Better Em % 523 U.S. 83,95 (1998)). Generally, in a civil case

6

where neither the United States, a United States agency, nor a United States officer or employee
is a party, a notice of appeal must be filed within thirty days after the judgment or order appealed
from is entered, 28 U.S.C. § 2107(a); Fed. R. App, P. 4(a)(1)(A).
On July 27,2020, the district court entered its judgment dismissing Danny R. Pennebaker’s
petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. (any notice of appeal from the
judgment was due to be filed on or before August 26,202()Npe 28 U.S.C. § 2107(a): Fed. R. App.
P. 4(a)(1)(A), 26(a). Pennebaker’s notice of appeal was not filed in the district court until
September 22,2020.
We entered an order directing Pennebaker to show cause why his appeal should not be
dismissed on the basis of a late notice of appeal. In response, he states that he did not receive the
district court’s judgment until September 8,2020.

No. 20-1968
-2-

Both 28 TJ.S.C. § 2107(c) and Federal Rule of Appellate Procedure 4(a)(6) allow an
appellant to move to reopen the time to file an appeal if the appellant did not receive timely notice
of the entry of the order or judgment from which he appeals. The district court may reopen the
time to file an appeal if the following conditions are satisfied: (1) the appellant did not receive
notice of the entry of judgment within 21 days after its entry, (2) the appellant files a motion for
extended time within 180 days after the judgment or order is entered or within 14 days after
receiving notice, whichever is earlier, and (3) no party would be prejudiced by an extension of
time. 28 U.S.C. § 2107(c); Fed. R. App, P. 4(a)(6). This “optionf] for extending the time to file

S

an appeal requirefsj a 'motion9 in which the losing party asks the district court for more time.”
237 (6th Cir. 2017) (per curiam)?^
Martin v, Sullivan, 876 F.3d 235,

A

Pennebaker did not file a motion asking the district court to reopen the time to appeal. He

filed a motion for reconsideration that was docketed in the district court on September 22, 2020,' but that motion did not request relief under § 2107(c) and Rule 4(a)(6) ^Moreover, we are “without
power to construe a notice of appeal as a motion to reopen the time to file an appeaLX Id, Likewise,
we are without power to construe Pennebaker’s response to our show-cause order as a motion to
reopen the time to file an appeal. See id. at 236-38.
For the reasons set forth above, we DISMISS the. appeal for lack ofjurisdiction.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

f

No. 20=1968
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

.

DANNY R. PENNEBAKER,

)
>
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
RANDEE REWERTS, Warden,
Respondent-Appellee.

. Jan 20. 2021
DEBORAH S. HUNT, Clerk

1

ORDER

Before: MOORE, ROGERS, and GRIFFIN, Circuit Judges.
Danny Pennebaker has filed a petition for rehearing of this court5 s December 1,2020, order
dismissing his appeal on the basis of a late notice of appeal.
Upon careful consideration, this pane! concludes that it did not misapprehend or overlook
any relevant point of law or fact when it entered the decision. See Fed. R. App. P. 40(a). Although
Pennebaker filed in the district court a motion to reopen the time to appeal, that motion was Itself
untimely and thus cannot support the requested relief. The motion to reopen time to appeal mailed
on 10/20/2020 and filed on 10/21/2020 was late.
- - — The^^itkwr-for-rehcarjng'fe'DENIEB. - ~

——— ~

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt. Clerk

5 '

c

Case 5:17-cv-12196-JEL»DRG EOF No. 18 filed 07/27/20 PagelD.751 Page 1 of 19

-

FC-

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Danny R, Peimebaker,
Petitioner.

Case No. 17-12196

v.
Randee Rewerts,1 Warden,
Respondent.

K'on. Judith E. Levy
United States District Judge
Mag, J. David R. Grand

OPINION AND ORDER DISMISSING THE PETITION
FOR A WRIT OF HABEAS CORPUS [1J. DENYING A ■
CERTIFICATE OF APPEALABILITY, AND DENYING
LEAVE TO PROCEED IN FORMA PAUPERIS ON APPEAL
Petitioner Danny R. Pennebaker, a prisoner currently held at the
Carson City Correctional Facility, in Carson City. Michigan, challenges
his convictions for felonious assault and assault with intent to rob while
armed. He seeks habeas corpus relief on the ground that his trial counsel
was constitutionally ineffective for conceding guilt on the felonious
assault charges, after Petitioner had asserted his innocence.

The proper respondent for a state prisoner seeking habeas relief pursuant to 28
U.S. O. § 2254 is the state officer having custody of the petitioner. See Rule 2(a) of the
Rules Governing § 2254 Cases, 28 U.S.C. foil. § 2254. The Court orders the case
caption amended to reflect the name of the warden of Carson City Correctional
Facility, Randee Rewerts.
i

Case 5:17-cv-12196-3EL-DRG EOF No, 18 filed 07/27/20 PageiD,7S2 Page 2 of 19

Because the Mich igan Court of Appeals’ decision de nying this claim
was not contrary to nor an unreasonable application of Supreme Court
precedent, the petition for habeas corpus is denied. The Court also denies
a certificate of appealability and leave to proceed in forma, pauperis on
appeal
L Background
Petitioner was convicted at a jury trial in Jackson County,
Michigan, of two counts of assault' with intent to rob while armed
(A.WIRA), Mich, Comp. Laws § 750,89, and two counts of felonious assault
(assault with a dangerous weapon), Mich. Comp. Laws § 750.82.
Following a direct appeal by right and a remand for resentencing, he was
sentenced as a fourth habitual offender to eleven to twenty years for the
AWIRA convictions and six to fifteen years for the felonious assault
convictions. The Michigan Court of Appeals described the circumstances
of the offense as follows:
On June 30, 2013, defendant stopped the two victims on. their
way to Taco Bell. Defendant asked the two victims for a
cigarette and also asked them to purchase a taco for him.
Thereafter, defendant rode off on his bicycle, but then he
returned and told the two victims that they looked like they
were “up to no good.” Defendant subsequently pulled out a
knife, which caused the two victims to run to the Taco Bell
2

•* i

Case 5:17-cv-12196-JEL-DRG ECF No. 18 filed 07/27/20 PageiD.753 Page 3 of 19

Police arrived at the Taco Bell shortly thereafter. One of the
victims had a cut on his arm. At some point, the police found
defendant, and the two victims identified defendant on scene
as the perpetrator.
People v. Pennebaker, No. 322117, 2015 WL 6439047, at

(Mich, Ct.

App. Oct. 22, 2015) (unpublished) (per curiam).
Petitioner raised four issues in his first direct appeal: ineffective
assistance of trial counsel for admitting Petitioner’s guilt without his
consent, jail credit error, and two arguments regarding improper scoring
of two offense variables (used in sentencing guideline calculations). The - „
state court affirmed Petitioner’s convictions but remanded for
resentencing over one of the offense variable errors. Pennebaker, 2015
WL 6439047, at *1, *3, Petitioner raised only the question of ineffective
assistance in his application for leave to appeal to the Michigan Supreme
Court. That court affirmed the court of appeals decision in a standard
form order. People v, JPennebaker, 499 Mich. 916 (2016).
Following resentencing, Petitioner again appealed by right, arguing
that the judge considered inaccurate information in Ms Presentence
Investigation Report (PSIR), The court of appeals again affirmed. People
v. Pennebaker, No. 335371. 2018 WL 521900, at *T (Mich, Ct. App. Jan.

3

r~

Case 5:17-ev-I2196~JEL-DRG EOF No. 18 filed 07/27/20 PagelD.754 Page 4 of 19

23, 2018). Petitioner did not seek leave to appeal that decision in the
Michigan Supreme Court.
Petitioner also filed a motion for relief from judgment at the trial
court, which was denied. The state court of appeals denied leave to
appeal, as did the state supreme court ‘‘because the defendant has failed
meet the burden of establishing, entitlement to relief undei/ MCE
6.508(B)A People v. Pennehaker, No. 349589 (Mich. Ct. App. Oct. 14,
2019) (unpublished); Iv. den,, 937 M.W.2d 683 (Mich. 2020). The state
supreme court also denied Petitioner’s motion to expand the record. Id,
Petitioner .filed this petition on June. 29, 2017. As he notes in
numerous pleadings (see, e.g., EOF No. 7, PageID.82—63; ECF No. 12,
PageID.98), he raises a single claim of error,*(that by admitting
Petitioner’s, guilt to the felonious assault counts without obtaining his
consent on the record for that admission, trial counsel was

V

constitutionally ineffective in violation of Petitioner’s Sixth Amendment

. Legal Standard
A habeas petition brought by a prisoner in state custody is governed
by the heightened standard of review set forth in the Anti-Terrorism and
4

A

(P

s'

Case 5:17-ev-1219S-JEL-DRG ECF No. 18 filed 07/27/20 PagelD.755 Page 5 of 19

Effective Death Penalty Act (AEDPA). 28 U.S.C. § 2254. To obtain relief
habeas petitioners who raise claims previously adjudicated by state
courts must “show that the relevant state-court 'decision* (1)( 'was
contrary to, or involved an unreasonable application of, clearly
•h established Federal law,’
<i

determination of fch
.rfc prj

ir (2) /‘was based on an unreasonable

•s m light of the evidence presented, in the State

adings. \ Wilson u. Sellers, 138 S. Ct. 1188, 1191 (2018)

^j^uotAng 28 U.S.C. |/2254(d)5.
For the purposes of habeas review, “clearly established Federal/'^'*
law” is based solely on Supreme Coumprecedent. Lopez v. Smith, 574
U.S. 1, 6 (2014) (per curiam) (citing 28 U.S.C. § 2254(d)(1)). “State-court
decisions are measured against this Court’s precedents as of‘the time the
state court renders its decision.’” Cullen v. Pin-holster, 563 U.S. 170, 182
(2011) (quoting Lockyer u. Andrade, 538 U.S. 63, 71—72, (2003)). “[Cjircuit
precedent does not constitute ‘clearly established Federal law as
determined by the Supreme Court”’ and thus cannot provide the basis for
♦

federal habeas relief. Parker v, Matthews, 567 U.S. 37, 48-49 (2012).
The focus of the AEDPA standard “is not whether a federal court
believes the state court’s determination was incorrect but whether that
5

Case 5:17-cv-12i96-JEL-DRG ECF No. 18 fiied 07/27/20

Page!D,756

Page 6 of 19

determination was unreasonafele-a substantially higher threshold.”
Schriro v. Landrigan, 550 U.S. 4@5S 473 (2007). “AEBPA thus imposes a
highly deferential standard for evaluating state-court rulings and

'U

demands that state-court decisions be given the benefit of the doubt.”''*
Renico v. Lett, 559 U.S. 786, 773 (2010) (internal citations and quotation
marks omitted).
Ultimately, “[a] state court’s determination that a claim lacks merit
precludes federal habeas relief so long as ‘fairminded jurists could
disagree’ on the

rrectness of the state court’s decision.” Harrington y.

Richter, 562 U.S, 86, 101 (2011) (qu&fci

hjJ^Alvarado, 541

4 UrST652. 664 (2004)). Additionally,, a state court’s factual determinations)'
are presumed correct on federal habeas review. 28 U.S.C. § 2254(eXl),
and review is “limited to me record that was

ofe~th^state court^
\

4

!lMen, 583 U.S. 170 at 1$I. A petitioner may rebut f

sgcesumBfion of

correctness with clear and convincing evidence. § 2254(e)(1)/ Warren v,
\

y/

/

Smith, 161 F.3d 358, 360-61 (6th Cir. 1998). rt[A] decisknf^djudicated on

Vs

the merits in a state court and based on a factual determination will not
be overturned on factual grounds unless objectively unreasonable in light

6

Case 5:17-cv-12196-JEL-DRG ECF No. 18 filed 07/27/20 PagelD.757 Page 7 of 19

of the evidence presented in the state-court proceeding,” Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003) (citations omitted).
III. Analysis
Petitioner's sole claim of error is that, trial counsel's defense was
objectr

unreasonable, because counsel conceded guilt- to the felonious

assault charges without obtaining consent from Petitioner on the record.

A 4

Petitioner argues that! his rejection of a plea offer before his July 2013
preliminary examination] which required him to plead guilty to a single
count of felonious assault in exchange for dismissal of the other charges
and reduced habitual offender sentence enhancementJshould have made
clear to his trial attorney that he sought to pursue a defense theory of
innocence at trial. (See., e,g,, ECF No. 12, PageID.98; ECF No. 16,
PagelB.744-45.)
In his opening statement, trial counsel stated that, “[ajfter you’ve
heard all the evidence I think you'll be convinced that Mr. Pennebaker is
guilty of .assaulting these young men with a. knife, inappropriately,
wrong£uUy[J there is no excuse for what he did.” (ECF No. 13-5,
PagelB.339). However, he continued, Petitioner “never intended at all to
rob these young men.” (Id. at PagelB. 339; see also id. at 338.) Similarly,
7

Case 5:17-cv-12196-JEL-DRG ECF No. IS filed 07/27/20

'

PageiD.758

Page 8 of 19

in his closing statement, counsel concluded that Petitioner was “guilty of
two counts, of felonious assault, he is because that’s what he did. But he
didn’t assault those boys intending to rob.” (Id. at 418.) In support,
defense counsel read from a letter Petitioner wrote to the victims (which
was identified and described as an admission by one of the victims (id. at
353).). (Id. at 416.) In that letter, Petitioner admitted to puffing out his ■
knife, which frightened the victims, who then ran away. (Id. at 417.)
Counsel argued that the letter demonstrated that Petitioner was
♦s.

panhandling and pulled out the knife after he felt the victims laughed at
him, humiliating him, but he never intended to rob them. (Id.)
v

J^The Michigan Court of Appeals ruled that Petitioner’ s ineffective

*

assistance of counsel claim lacked merit. Pennebaker, 2015 WL 6439047,
C***
j
K\& at *1. It found that ‘Tilt is clear from the record that defense counsel did
sIjP0 -6*'
.

(A***

n/°“ ma^8 a complete concession of guilt, but rather defense' counsel

coPtconce&ed that defendant was guilty of the lesser charged offenses of
'IP™

onions assault.” Id. The court continued:
Here, defendant was positively identified by both of the
victims; defendant had a knife with him when police stopped
him; and defendant admitted, in a letter to the victims, that
he pulled a knife on both of them and both of them appeared
to be scared. “When defense counsel ... recognises and
8

^

Case 5:l7-cv-X2196«JEL-DRG ECF No. 18 filed 07/27/20 PagelD.759 Page 9 of 19

candidly asserts the inevitable, he is often serving his client’s
interests best by bringing out the damaging information and
thus lessening the impact,” People v. Wise, 134 Mich. App 82,
98; 351 N.W.2d 255 (1984). Accordingly, defense counsels
performance was not objectively unreasonable; thus,
defendant’s ineffective assistance of counsel claim of error
lacks merit.
Pennebaker, 2015 WL 6439047, at *1.
Petitioner cites Supreme Court cases McCoy v. Louisiana, 138 S.

A

Ch 1500 (2018), and Florida v. Nixon-, 543 U.S. 175 (2004), as well as
Sixth Circuit case Wiley v. Sowders, 647 F.2d 642, 650 (6th Cir. 1981), in
Support of his argument/ None establish that he is entitled to habeas
relief.
j jPffst, McCoy was issued on May 14, 2018, two and a half years, after
the Michigan Court of Appeals decided this question in Petitioner’s first
direct ppeahLl state court decision cannot be challenged under § 2254(d)
on Supreme Court decisions not yet decided at “the time the state

,

court render[edj its decision.”

^

■reene v, Fisher, 566 U.S. 34, 38 (2011)

^UG^a^0ns anG emphasis omitted); see also. alien, 563 U.S, at 182.

yvicfrl
■

l

(o[\
1° ^

Furthermore, McCoy indistinguishable. In McCoy, the Supreme
Court held that it was imperSIiiible for defense counsel to concede a
defendant’s guilt during

e guilt phase of a two-phase death penalty

Case 5:17-cv-12X96-JEL-DRG EOF No, 18 filed 07/27/20 PagelD.760 Page 10 of 19
^

\

trial, when the defendant ‘Vociferously insisted that he did not engage in
the charged acts and adamantly objected to any admission of guilt,”] 138
S. Ot. at 1505, 1508. The Court reasoned that while “[tjrial management
is the lawyer’s province,” such as deciding to “what arguments to pursue,
what evidentiary objections to raise, and what agreements to conclude
regarding the admission of evidence,] a criminal defendant is entitled to
the “[ajutonomy to decide that the objective of the defense is to assert
innocence”

d to “insist on maintaining her innocence at the guilt phase

of a capital trial/ Id. at 1508L As a result, the Sixth Amendment gives a
e right to insist that counsel refrain from admitting guilt

de:

over the defendant’s objection, even when counsel believes that it is in
the defendant’s best interest to do so to avoid a harsh sentence, Ycf at
1511[McCoy found this denial of autonomy to be structural error, anc
therefore the ineffective assistance of counsel analysis of Strickland]( v
Washington, 466 U.S. 668 (1984), did not apptyf|38 S, Ct. at 1511. ftlcCoy
distinguished Florida v> Nixon, another case in which guilt was conceded
by trial counsel. In the latter case, counsel was found not to be
constitutionally ineffective, because “Nixon’s attorney did not negate.
10

Case 5:17-cv-12196-JEL-DRG ECF No. 18 filed 07/27/20 PagelD.761 Page 11 of 19

Nixon’s autonomy by overriding Nixon’s desired defense objective.”
/)

McCoy, 13S S. Ct. at 1509 (citing Nixon, 543 U.S. at 181; see also id. a
^

,

'

192^ Unlike McCoy’s “adamantQ objections]/’ id. at 1505( Nixon was
“generally unresponsive,” and never articulated a defense objective; nor
did he approve of or protest counsel’s proposed strategy.

cCoy, 138 S.

Ct. at 1509 (citing Nixon, 543 U.S. at 181). Nixon only complained about
counsel’s concession of guilt after trial. Nixon, 543 U.S. at 18^ “McCoy,
in contrast, opposed Oils attorney’s] assertion of his guilt at every
opportunity, before and during trial, both in conference with his lawyer
and in open court.”

rcCoy, 138 S. Ct. at 1509.

(^Petitioner's circumstances correspond more closely to Nixon’s
failure to respond than to McCoy’s vociferous insistence on innocence?^
That is, Pgfitionerargij.es that his attorney should have been aware of
^

to assert his innocence at trial based primarily on his rejection
<*-

^

*6 of a plea offer to a single count of felonious assault many months before
the March 2014 trial.f He doesjiafc argue that he objected to this strategy
with his attorney or tie court before or during trial;

n

' 2 Petitioner also cites in support of his argument statements he made at an
October 2013 hearing purportedly asserting innocence. As with the plea rejection,
iear
those remarks preceded his trial by several months; in addition, they are not t
11

*. -

Case 5:I7-cv-12196-JEL-DRG ECFNo, 18 filed 07/27/20 PagelD.762 Page 12 of 19
/

> U,v
;

etitioner demonstrated at his October 2013 pretrial hearing that

^

^ he was capable of advocating for himself directly with the court, when he
sought replacement of appointed counsel or the opportunity to represent »'4

'

himself. uECF No. 13-3, PageID.246, 249-51.) Even if, as/Petitiom
alleges, his attorney never discussed trial strategy with him,

was on

7

notice of counsel's defense theory as soon as counsel made his opening
statement.jYet Petitioner failed to oppose this strategy with his attorney
or before the court; nor did he-clearly and!consistently insist on a defense
of innocence^Instead, Petitioner,/like the defendant in Nixon) only
objected to'Counsel’s defensest^

As a result, this is not a

4x> 4->.
case.

iructural error, as in McCoy, but rather> invokes Nixon's analysis

of ineffective assistance of counsel.
The Nixon Court determined that Strickland governed the question
. before it, namely, whether a defendant must consent to counsel’s
strategic choices. It rejected a “blanket rule demanding” consent, and
instead held that “if counsel’s strategy, given the evidence bearing on the

Jf.

\o

^assertion of innocence he suggests.! Specifically. Petitioner said to the trial court, "I
do not claim innocence of a crime taking place. I do claim, that the crimes as charged
did not take place/*)® CP No. 13-3, PageID.251.) Petitioner’s dispute was the result
of his knife’s blade determined whether charges should
of his perception tne length
1«
have been issued. Id.

12

Case 5:i7-cv-i2196-JEL-DRG ECF No. 18 filed G7/27/2G

PageiD.763 Page 13 of 19

defendant’s guilt, satisfies the Strickland standard, that is the end of the
matter; no tenable claim of ineffective assistance would remain,”3 Nixon,
543 U.S. at 192.
Claims for habeas relief based on ineffective assistance of counsel
are evaluated under a “doubly deferential” standard. Abby v. Howe, 742
F.3d 221, 226 (6th Cir. 2014) (citing Burt v, Titlovj, 571 U.S. 12, 16
(2013)).. First, under the two-pronged standard of Strickland, a habeas
petitioner must show “that counsel’s representation fell below an
objective standard of reasonableness,” and “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Lafler v. Cooper, 566 U.S. 156,
163 (2012) (citations omitted). Strickland requires a “strong presumption
that counsel’s conduct [fell] within the wide range of reasonable
professional assistance[J” Abby, 742 F,8d at 226 (citing Strickland, 466
Ss^s I Nixon does, suggest that a defense-strategy that includes the admission of a
defendant’s guilt outside its capital contextWght. “in a run-of-the-mine trial might
present a. closer question,” as to whether counsel "fail[ed} to function in
meaningful sense as the Government’s a{persary?)543 U.S. at 190 (quoti
>dled
States u. Cranic, 466 U.S. 648, 666 (1984)). However, those remarks ar^dicta, )and
therefore do not represent "clearly established Federal law” for the
ises of
section 2254 analysis. See White v. Wooqall, 572 U.S. 415, 419 (2014) (citing Howes
v. Fields, 132 S. Ct. 1181, 1187(2012)).

P* j n

13

Jo

■(j1

Case 5:17-cv-12196«JEL-DRG ECF No. 18 filed 07/27/20

PageiD.784

Page 14 of 19

U.S. at 689), and that “under the circumstances, the challenged action
‘might be considered sound trial strategy.”’ Bell v. Cone, 535 XJ.S-. 685,
698 (2002} (citing Strickland, 466 U.S. at 689).
AEDPA provides the second layer of deference, under which the
Court may “examine only whether the state court was reasonable in its
determination that counsel’s performance was adequate.5"' Abby, 742 F.3d
at 22@ (citing Burt. 134 S. Cfc, at 18). “The pivotal question is whether the
state court’s application of the Strickland standard -was unreasonable,”
which “is different from asking whether defense counsel’s performance
fell below Strickland's standard.” Harrington, 562 U.S. at 101.
Against Nixon and the doubly deferential standard AEDPA
requires, the (state courts were not unreasonableVto find that defense

fry
v--------/
counsel
provi
’etrtioner
effective
assistance!/ Counsel’s choice of
\s v'

i

Zf

rategy was a reasonable attempt to mitigate the impact of significant
evidence against Petitioner, especially Petitioner’s own admission in his
letter that he used a knife to frighten the victims
ther, (petitioner cannot establish that he was prejudiced by
counsel’s concession of guiitAHis sole argument in favor of prejudice is
that counsel’s admission exposed him to a higher potential sentence than

V/

14

v*

Case 5:17-cv-12196*JEL-DRG ECF No, 18 filed 07/27/20 PageiD.765 Page 15 of IS

5
*

A

fcBat of the July 2013 plea offer, had he accepted it. fECF No. 1,

\

p

J

PageJD.33J/Howevers the plea offer, which Petitioner rejected months
€while re'

iy a different 'a:

i^ted attorney, bears no

%

relation or relevance to his sentence after tri&jr Petitioner does not
suggest he declined the pie a .offer-a-slfne result of ineffective assistance of
counsel and then received a longer sentence as the result of proceeding
to trial. See Lafler v. Coooer^S

isms. 170 (2012)/ Defense counsel’s

dmissmirtSfthe felonious assaults had. no direct impact on the -sentence
Petitioner ultimately -received.) And an unsuccessful trial strategy does
not establish that counsel was ineffective. See Moss v. Hofbauer, 288 F.3d
851, 859 (6th Cir. 2002) (“an meffective-assistance-of-counsei claim
cannot survive so long as the decisions of a defendant’s trial counsel were
reasonable, even if mistaken”).
Finally, Petitioner is not entitled to habeas relief based on V/iley v.
Sawders, a pre-AEBPA Sixth Circuit habeas case in which a petitioner’s
“lawyer admitted his client’s guilt, without first obtaining his- client’s
consent to this strategy." 647 F.2d 642, 650 (6th Cir. 1981). Wiley held
that consent “must appear outside the presence of the jury on the trial
record,” and that the failure to obtain that consent, where the evidence
15

Case 5:17-cv-12196-JEL-DRG ECF No. 18 filed 07/27/20 PagelD.766 Page 16 of IS

was circumstantial and the likelihood of conviction absent the confession
unclear, was ineffective assistance of counsel. Id.
However, a later case distinguished Wiley and rejected a similar
claim, where counsel “argued to the jury that petitioner was guilty only
of the lesser included offense of second-degree home invasion” but did not
concede guilt in “the charged offenses of armed robbery or first-degree
home invasion.” Johnson v. Warren, 344 F. Supp. 2d 1081, 1095 (E.D.
Mich. 2004). That court found trial counsel’s admission of guilt, in “an.
attempt to win an acquittal” on the higher, charged offenses “a legitimate
trial strategy.” IcL)
^Mosfe importantly, clearly established law for habeas purposes may

4-

qnly be determined by the holdings of the United States Supreme Court,
so this Court may not apply Wiley to grant habeas relief to Petitioner.
Parker, §67 U.8. at 48-49. In addition, Petitioner’s circumstances
correspond more

Johnson’s\haxi Wiley*s. The evidence in Petitioner’s

case was much more si

leant than in Wiley, including the location of

the suspect very shortly after police were called, matching the victims’
descriptions (ECF No. 13-5, PageID.396); the victims’ individual
identifications of him (id. at 383); the knife found within Petitioner’s
16

Case 5:X7-cv-12196-.JEL-DRG ECF No. 18 filed 07/27/20 PagelD.767 Page 17 of 19

reach (id. at 390); and the letter from Petitioner to the victims admitting
he pulled a knife and scared them (id. at 353, 416-18).
Further, although the felonious assault charges against Petitioner
were not “lesser included offenses” of the assault while attempting to rob
charges per se, see People v. Walls, 265 Mich. App, 642, 646 (2005), they
were much less consequential.^Compare Mich. Comp. Laws § 750.89
(assault with, intent to rob punishable by life or any term of years), Mich,
Comp, Laws § 750,82 (felonious assault is a four-year offense; fourth
habitual offender enhancement raises the penalty to a maximum of
fifteen years, Mich. Comp. Laws § 769.12(l)(c)). Applying Johnson, a
defense seeking to limit convictions to lower-penalty charges was a
“legitimate trial strategy^ The state courts’ finding that Petitioner’s
Sixth Amendment rights to counsel were not violated was not
unreasonable. Petitioner is not entitled to habeas relief.
IV. Certificate of Appealability and Pauper Status on Appeal
Federal Rule of Appellate Procedure 22(b)(1) provides that an
appeal may not proceed unless a certificate of appealability is issued
under 28 U.S.C. § 2253/Rule 11(a) of the Rules Governing Section 2254

17

MX
Case 5:i7-cv-12196-JEL-DRG ECF No. 18 filed 07/27/20

PagelD.768

Page 18 of 19

Cases requires the Court id “issue or deny a certificate of appealability

L

r

'X

when it enters a final order adverse to the applicant/’ \
obtain a certificate of appealability, a prisoner must make a
^substantial showing of the denial of a constitutional rights28 U.3.C. §
2253(c)(2). Section 2255(c)(2)Js satisfiedfonlwif reasonable iuristg"couId.
find either that the district court’s assessment^^^^tablefer wrong/or-.
^

the issues *resen'

deserve encouragement to proceed further.^

Slack v, McDaniel, 529 U.S. 473, 483-84 (2000).
For the reasons set forth abu ^reasonable pigists ..could

find.

jthis Court’s assessment of Petitioners claims to he debatableJ^rwrong.
Nor would reasonable jurists fcon&ude* that the issues. nresented_are

y in
V* -

^fldA£iiatQ to deserve encouragement to proceed furtherJ >pee Miilender v,
Adams, 187 F. Supp.2d 852, 880 (E.D. Mich. 2002). Consequently,
Petitioner is not entitled to a certificate of appealability.

-t 4

■i&st

Further, an appeal from this decision would b^filyolous^nd could
not be taken in good faith. See Coppedge v. U.S., 369 U.S. 438, 444 (1962).
Therefore, Petitioner may not proceed in forma pauperis on appeal. Fed.
„ R. App. P. 24(a)(3)(A).
V. Conclusion
18

•'t ‘

, •,

i

Case 5:l?-cv-1219S-JEL-DRG EOF No. 18 filed 07/27/20 PagelD.769 Page 19 of 19

For the reasons set forth abovi
corpus (EOF No. 1) is

e petition for a writ of habeas

ISMISSEp WITH PREJUDICE; and a

certificate of appealability and permission to appeal in forma pauperis
are DENIED.
XT is SO ORDERED.
s/Judith E. Lew
JUDITH E. LEVY
United States District Judge

Bated: July 27, 2020
Ann Arbor, Michigan

CERTIFICATE OF SERVICE
The undersigned certifies- that the foregoing document was served
upon counsel of record and any unrepresented parties via the Court’s
ECF System to their respective email or First Class U.S. mail addresses
disclosed on the Notice of.Electronic Filing on July 27, '2020.
■s/William Barkholz
■WILLIAM BARKHOLZ
Case Manager

19

Case 5:17-cv-12196-J£L-DRG ECF No. 19 filed 07/27/20 PageSDJ70 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Danny R. Pennebaker,
Case No. 17-12196

Petitioner,
v.

Hon. Judith E. Levy
United States District Judge

Randee Rewerts, Warden,

Mag, J. David. R.. Grand

Respondent.

JUDGMENT
For the reasons set forth in the opinion and order entered on today’s
date, it is ordered and adjudged that this case is dismissed with prejudice.
DAVID J. WEAVER
CLERK OF THE COURT
By:. s/William Barkholz
DEPUTY COURT CLERK
Date: July 27, 2020
APPROVED:
a/JUDITH E. LEVY
UNITED STATES DISTRICT JUDGE

-

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PageID.817 Filed 01/27/21 Page 1 of 14

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Danny R. Fennehaker,
Petitioner,

Case No. 17=12196

v.
Ran dee Rewerts,1 Warden,
Respondent.

Hon. Judith E. Levy
United. States District Judge
Mag. J. David R. Grand

OPINION AND ORDER DENYING PETITIONER’S MOTION
FOR RECONSIDERATION [24], DENYING AS MOOT
PETITIONER’S MOTION FOR CONSIDERATION OF HABEAS
CORPUS PETITION [22], AND DENYING PETITIONER’S
MOTIONS TO REOPEN OR EXTEND TIME TO APPEAL F26. 271
Petitioner Danny R. Pemxebaker, a prisoner currently confined at
the Carson City Correctional Facility, in Carson City, Michigan, filed a
pro se petition challenging his convictions for felonious assault and
assault with intent to rob while armed. He sought habeas corpus relief
on the ground that Ms trial counsel was constitutionally ineffective for

The proper respondent for a state prisoner seeking habeas relief pursuant to
28 U.S.C. § 2254 is the state officer having custody of the petitioner. See Rule 2(a) of
the Rules Governing § 2254 Cases, 28 U.S.C. foil. § 2254. The Court orders the case
caption amended to reflect the name of the warden of Carson City Correctional
Facility, Randee Rewerts.
i

etvvrsriC

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.818 Filed 01/27/21 Page 2 of 14

conceding guilt on the felonious assault charges after Petitioner had
asserted his innocence. The Court denied relief in an Order dated July
27, 2020. (ECF No. 18.) The Court’s Order was mailed to Petitioner but
was returned as undeliverable. (ECF No. 21.) Petitioner asserts that lie
did not receive the Court’s Order until September 8, 2020. (ECF Nos. 24,
26.)
Now before the Court are four motions filed by Petitioner. The first
motion, filed before Petitioner received notice that Ms petition was
denied, sought a ruling on the habeas petition. (ECF No. 22.) Next,
Petitioner filed a motion for reconsideration2 of the Court’s denial of his
habeas petition. (ECF No. 24.) On September 22, 2020, Petitioner filed a
Notice of Appeal (ECF No. 23), which was followed by two motions
requesting this Court reopen or extend his time to appeal, on. October 19,

2 Petitioner’s motion for reconsideration was erroneously docketed as filed
September 22, 2020. Under the “prison mailbox rule,” the motion was filed on
September 14, 2020, when it was signed and provided to prison authorities for
delivery via U.S. Postal Mail. (See ECF No. 24, PageIB.792). United States v.
Smotherman. 838 F.3d 736, 737 (6th Cir. 2016) (citing Houston v. Lack, 487 U.S. 266,
276 (1988); Tanner v. Yukins, 776 F.3d 434, 436 (6th Cir. 2015)) (other citations
omitted) (recognising the “typical rule that a pro se prisoner’s” pleadings are
considered filed when submitted for mailing to the court).

2

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.819 Filed 01/27/21 Page 3 of 14

2020, and December 16, 2020. (ECF Nos, 26, 27.) For the reasons stated
below, all motions are denied. I. Background
Petitioner was convicted at a jury trial in Jackson County,
Michigan, of two counts of assault with intent to rob while armed
(“AWIRA”), Mich. Comp. Laws § 750.89; and two counts of felonious
assault (assault with a dangerous weapon), Mich. Comp. Laws § 750.82,
for pulling a knife on two individuals. People v. Pennebaker, No. 322117,
2015 WL 6439047, at *1 (Mich. Ct. App. Oct. 22, 2015) (unpublished) (per
curiam).
Following a direct appeal by right and collateral motions in the
state courts, Petitioner filed an application for the writ of habeas corpus
in this Court. (ECF No, 1.) Petitioner’s sole issue was that his trial
attorney was ineffective because he “admitfed] guilt to two counts of
felon[ijous assault, without my consent, after I have already rejected a
plea bargain to admit guilt to only one count of felon[i]ous assault/’ (Id.
at PagelB.S.)
On July 27, 2020, the Court dismissed Petitioner’s application for a
writ of habeas corpus because he did not establish his entitlement to
3

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.820 Filed 01/27/21 Page 4 of 14

relief. (ECF No, 18.) It also declined to issue a certificate of appealability
or grant Petitioner pauper status on appeal. (Id.)
Petitioner’s motion for “consideration” of his petition, requesting \
the Court grant or deny it, was filed on August 19, 2020. (ECF No. 22.)
As the petition had already been denied, this motion was moot when it
was filed. Petitioner’s motion for reconsideration argues that the Court
erred in its understanding and analysis of his habeas claim. (ECF No.
24.) Alternatively, the motion contends that the Anti-Terrorism and
Effective Death Penalty Act (“AEDPA”) should not apply to Petitioner’s
case. (Id.)
Petitioner asserts that he did not receive notice of the July 27, 2020,
Order and Judgment until September 8, 2020, after it was sent to Mm by
the Jackson County appellate prosecutor. (Pet, Mot. Reconsid., ECF No.
24, PagelD.786-87; see also Pet. Mot. Reopen/Ext. Time, ECF No. 26,
PageIB.799 (letter from, prosecutor),) Petitioner’s account is supported by
the case docket, which indicates the order sent to him was returned to
the Court by the Michigan Department of Corrections. (See ECF No. 21.)
Petitioner filed a. notice of appeal of the dismissal on September 22,
2020. (ECF No. 23.) He also filed two motions to reopen or extend the
4

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.821 Filed 01/27/21 Page 5 of 14

time to appeal, on October 21, 2020 and December 16, 2020, again noting
that he did not receive this Court’s July 27, 2020 Order until several
weeks after it was entered. (ECF Nos. 26, 27.)
On December 1, 2020, the Sixth Circuit dismissed Petitioner’s
appeal for lack of jurisdiction because he did not file it within thirty days
of the order dismissing his habeas petition and he had not moved for an
extension or reopening of the time to file by this court. (See Sixth Circuit
Court of Appeals Case No. 20-1968, Order, Dec. 1, 2020, ECF No. 15-2.)
On January 20, 2021, that Court denied Petitioner’s motion for
reconsideration, reiterating that Ms October 2020 motion to reopen his
time to appeal was filed, too late. (Case No. 17=12196, ECF No. 28.)
II. Legal Standard
Petitioner does

not

state

the basis

for Ms

motion for

reconsideration. Pleadings by pro se litigators must be construed liberally
and “held to less stringent standards than formal pleadings drafted by
lawyers [.]” Erickson v. Pardm, 551 U.S. 89, 90 (2007) (citing Estelle v.
Gamble, 429 U.S. 97, 106 (1976)). Because Petitioner’s argument is with
the Court’s legal analysis, the Court construes his motion as brought
pursuant to Fed. R. Civ. P. 59 or 60(b)(1). A court “may grant a timely
5

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.822 Filed 01/27/21 Page 6 of 14

Rule 59 motion to alter or amend [a] judgment to correct a clear error of
law.. ” Volunteer Energy Serve., Inc. v. Option Energy, LLC, 579 F. App’x
319, 330 (6th Cir, 2014) (quoting Doran v. Comm'r of Soc. Sec., 467 F.
App5x 446, 448 (6th Cir. 2012)). Relief under Rule 60(b)(1) is available
“when the judge has made a substantive mistake of law or fact in the
final judgment or order.” United States v. Reyes, 307 F.3d 451, 455 (6th
Cir. 2002) (citing Cacevic v. City of Hazel Park, 226 F.3d 483, 490 (6th
Cir. 2000)).
Motions for reconsideration are also governed by Local Rule 7.1 of
the Eastern District of Michigan. Hence v. Smith, 49 F. Supp. 2d 547, 550
(E.D. Midi. 1999). A motion for reconsideration should be granted if the
movant demonstrates a palpable defect by which the court and the
parties have been misled and that a different disposition of the case must
result from a correction thereof. Ward v. Wolfenbarger, 340 F. Supp, 2d,
773, 774 (E.D. Mich. 2004); Hence, 49 F. Supp. 2d at 550-51 (citing L.R.
7.1(g)(3)). Under Local Rule 7.1, a motion that merely presents “the same
issues ruled upon by the Court, either expressly or by reasonable
implication,” shall be denied. Ward, 340 F. Supp. 2d. at 774.

6

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.823 Filed 01/27/21 Page 7 of 14

ill. Analysis
A. Motion for Reconsideration
Petitioner asserts in Ms motion for reconsideration that the Court
misunderstood Ms sole issue of ineffective assistance; specifically,
overlooking his claim of structural error and mistakenly analyzing the
issue for harmless error. (ECF No. 24, PageID.787.). He seeks review of
the “proper issue” or alternatively, analysis “outside the constraints” of
the Anti-Terrorism and Effective Death Penalty Act (“AEDPA”). (Id. at
PageID.788.) Petitioner also argues that McCoy v. Louisiana, 138 S. Ct.
1500 (2018), applies to his case because it was decided before the state
court issued its decision on collateral review. (Id. at PagelD.789-90.)
First, under E.D. Mich. Local Rule 7.1, Petitioner’s motion, is denied
because his arguments for reconsideration axe the same as those
considered by the Court in its original order. Hence, 49 F. Supp. 2d at
553. In addition, contrary to Petitioner’s assertions, the Court analyzed
whether McCoy entitled Petitioner to relief (see ECF No, 18, PagelD, 759—
62), and further, it expressly reached the question of structural error lie
argues the Court overlooked. The order explained the appropriate
7

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.824 Filed 01/27/21 Page 8 of 14

inquiry in Petitioner’s case was ineffective assistance of counsel under
Florida v. Nixon, 548 U.S. 176 (2004), not structural error under McCoy.
(Id. at 762.) Petitioner is thus not entitled to relief on this motion.
Alternatively, Petitioner argues ASDPA should not apply to Ms
'A
habeas petition because “the state courts were given an opportunity to
address, as new evidence, the plea rejection, issue and refusal to admit
guilt . .

but they did not do so. (ECF No. 24, PageID.788.) Petitioner

describes tMs “new evidence” as “the details of the rejected plea offer ., .
which outlines and validates the refusal to admit guilt to only one count
of FA in a plea offer.” (Id. at 791. n. 2.) Petitioner refers to a letter by his
first appointed trial counsel (Id.; see also Pet. Mot. ReL fr. J., ECF No.
15-1, PagelB. 686.) However, the attorney’s letters provide no details of
the plea offer, at best referring only to a “verbal plea offer, should Mr.
Pennebaker waive preliminary examination ” (See Pet. Mot. Expand
Ree., ECF No. 12, PageID.144; see generally id. at PagelB. 143—47.) in
fact, counsel’s letters are clear that any record of the offer and his
rejection • of it, which might have informed successor counsel of
Petitioner’s purported assertion of innocence, likely did not exist and.
would not have been in his criminal case file. (See id. at PagelB. 143—47.)

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.825 Filed 01/27/21 Page 9 of 14

Regardless, the presence or absence of a record of the plea offer’s
details and Petitioner’s rejection of it does not change the outcome here..
As explained in the Court’s order dismissing the petition, the single ■
rejection of a plea offer months before trial simply does not correspond to
the “strenuous Q object [ions]” the defendant in McCoy raised “at every
opportunity,” McCoy, 138 S. Ct. at 1509, 1512. Petitioner’s “new
evidence” does not demonstrate he is entitled to relief under McCoy.
In sum, Petitioner has identified no palpable error, the correction
of which would result in a different outcome. For the reasons stated in
the Court’s July 27, 2020 Order, Petitioner is not entitled to a certificate
of appealability because he has not made a substantial showing of the
denial of a constitutional right. 28 U.S.C. § 2253(c)(2). In addition,
because an appeal from this decision would be frivolous and could not be
taken in good faith, Petitioner may not proceed in forma pauperis on
appeal. See Coppedge u I7.fi,, 369 U.S. 438, 444 (1962); Fed. R. App. P.
24(a)(3)(A).
B. Motion to reopen, or extend time to appeal
The Sixth Circuit has ruled that Petitioner’s motion, to reopen or
extend his time to appeal was untimely and has rejected his motion to
9

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.826 Filed 01/27/21 Page 10 of 14

reconsider that ruling. (See Sixth Circuit Court of Appeals Case No, 201968, Order, Dec. 1, 2020, ECF No. 15=2; Sixth Circuit Order, Jan. 20,
2021, Case No. 17-12196, ECF No. 28.) The Court will explain in more
detail why Petitioner is not entitled to relief, and why his pending motion
for reconsideration In this Court does not dictate a different outcome.
First, the Federal Rules of Appellate Procedure require that a
notice of appeal “must be filed with the district clerk within 30 days after
entry of the judgment or order appealed from/’ Fed. R. App. P. 4(a)(1)(A),
A party seeking to extend the deadline or reopen the time to file an appeal
must file a motion requesting such relief in the district court. E. 4(a)(5),
(6).
A court may grant a motion for extension of time that is filed “no
later than 30 days” after the expiration of the thirty-day time to file. R.
4(a)(5)(A); see als>

hnner v. Yuki < 776 F.3d 434, 438 (6th Cir. 2015),

Petitioner’s first motion to reopen the deadline or extend the time (ECF
No. 26) exceeds that sixty-day limit, because it was filed October 19, 2020,
eighty-four days after the entry of the order dismissing his petition.
Rule 4 permits a district court to reopen—for fourteen days—a
party’s time to file an appeal if two conditions are met: first, that the
10

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.827 Filed 01/27/21 Page 11 of 14

party did not receive notice of the order being appealed within twentyone days of its entry; and second, that the motion to reopen be filed within
the earlier of fourteen days after receiving notice or 180 days after the
order or judgement is entered. E. 4(a)(6)(A), (B); 28 U.S.C. § 2107(c); Hall
v. Scutt, 482 F. App’x 990, 990-91 (6th Cir. 2012) (citing Bowles v.
Russell, 432 F.3d 668, 672 (6th Cir. 2005), affd, 551 IIS, 205 (2007))
(“Rule 4(a)(6) is the exclusive remedy for reopening the time to file an
appeaf5).
Petitioner meets the first criterion, having received notice of the
Court's July 27, 2020 Order on September 8, 2020, six weeks after its
entry. However, he failed to file Ms motion to reopen the time to appeal
within the fourteen days following notice as required by Rule 4(a)(6)(B).
Petitioner asserts in an affidavit filed with Ms second motion to
extend or reopen Ms time to file that he filed such a motion on September
15, 2020, in both the district court and the Sixth Circuit Court of Appeals.
(ECF No. 27, PageXD.811.) He stated the pleading also included motions
to reconsider, for a certificate of appealability, and for leave to proceed in
forma pauperis on appeal. (Id.) A pleading filed at the Sixth Circuit dated
September 14, 2020 includes the latter three motions, (Docket No. 2011

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.828 Filed 01/27/21 Page 12 of 14

1968, Dkt. Entry 3-2.) However, the document does not include a request
to extend the time to appeal. Further, the Court has reviewed in detail
Petitioner’s pleadings in both the district court and the court of appeals
but finds no evidence that he requested such relief before October 19,
2020.

Nor may the Court grant relief because of Petitioner’s pending
motion for reconsideration, which can impact the timing of a notice of
appeal. E. 4(a)(4). Unfortunately for Petitioner, because the motion was
filed more than twenty-eight days after the Court’s Order and Judgment
were filed, it does not provide a basis to extend his time to appeal. R.

V

4(a)(4)(A)(iv)-(vi) (addressing motions brought pursuant to Fed. R. Civ.
P. 59 and 60); see also Hall, 482 F. App’x at 991 (citations omitted) (“Rule
60(b) cannot be used to circumvent Rule 4(a)(6)’s requirements.”);
McDonald v. Lassleii, No. 18=2435, 2019 WL 2592572, at *2 (6th Cir. May
28, 2019) (a motion for reconsideration filed “more than twenty-eight
days after the district court’s August 15 judgment. . . did not meet Rule
4(a)(4)(A)(vi)’g requirements”).
In Bowles, the Supreme Court held “the timely filing of a notice of
appeal in a civil case is a jurisdictional requirement” not subject to
12

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.829 Filed 01/27/21 Page 13 of 14
%

equitable exceptions. 551 IJ.S. at 214. Accordingly, the restrictions above
apply regardless of whether the partjr received notice within the rules5
time limits. As the Tenth Circuit has observed, “[tjjhe essence of Rule
4(a)(6) is finality of judgment55 and the application of that finality “may
work misfortune . . .55 Clark u. Lavallie, 204 F.3d 1038, 1041 (10th Cir.
2000). Petitioner was reasonably diligent in attempting to preserve his
rights and Ms circumstances reflect Clark's “misfortune.55 The Court is
sympathetic, but under Bowles and pursuant to the Sixth Circuit’s orders
in Petitioner’s appeal, Petitioner’s time to appeal will not be reopened.
IV. Conclusion
For

the

reasons

stated

above,

Petitioner’s

motion

for

reconsideration (ECF No. 24) is DENIED.
Petitioner s motion for consideration of the habeas petition (ECF
.No. 22) is DENIED AS MOOT.
Petitioner’s motions to reopen or extend the time to file an appeal
(ECF No. 26, 27) are DENIED.
Petitioner’s request for a certificate of appealability and permission
to appeal in forma pauperis is DENIED.
IT IS SO ORDERED.
13

Case 5:17-cv-12196-JEL-DRG ECF No. 29, PagelD.830 Filed 01/27/21 Page 14 of 14

Bated: January 27, 2021
Ann Arbor. Michigan

s/Judith E. Lew
JUDITH E. LEVY
United States District Judge

CERTIFICATE OF SERVICE
The undersigned certifies tha.t the foregoing document was served
upon counsel of record and any unrepresented parties via the Court's
ECF System to their respective email or First Class IXS. mail addresses
disclosed on the Notice of Electronic Filing on January 27, 2021.
s/William Barkholz
WILLIAM BARKHOLZ
Case Manager

14

STATE OF MICHIGAN
COURT OF APPEALS

UNPUBLISHED
October 22, 2015

' PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

No. 322117
Jackson Circuit Court
LC No. 13-004717-FC

v
DANNY RAY PENNEBAKER,
Defendant-Appellant. *
y

Before: M. J. Kelly, P.J., and Murray and Shapiro, JJ.
Per Curiam.
Defendant Danny Ray Pennebaker appeals as of right his convictions for two counts of
assault with intent to rob while armed, MCL 750.89; and two counts of assault with a dangerous
•weapon (felonious assault), MCL 750.82. We affirm defendant’s convictions, but remand for
resentencing.
On June 30, 2013, defendant stopped the two victims on their way to Taco Bell.
Defendant asked the two victims for a cigarette and also asked them to purchase a taco for him.
Thereafter, defendant rode off on his bicycle, but then he returned and told the two victims that
they looked like they were “up to no good.” Defendant subsequently pulled out a knife, which
paused the two victims to run to the Taco Beil. Police arrived at the Taco Bell shortly thereafter.
One. of the victims had a cut on his arm. At some point, the police found defendant, and the two
victims identified defendant on scene as the perpetrator.
Defendant argues that defense counsel was ineffective when he stated during opening
statement and closing argument that defendant was guilty of assault with a dangerous weapon.
Review is limited to the facts on the record because the trial court did not hold an evidentiary
hearing. People v Wilson, 242 Mich App 350, 352; 619 NW2d 413 (2000). To demonstrate
ineffective assistance of counsel, a defendant must show that trial counsel’s performance was
deficient (i.e. objectively unreasonable), and that there exists “a reasonable probability that, but
■ for counsel’s error, the result of the proceeding would have been different,” People v Corbin,
463 Mich 590, 600; 623 NW2d 884 (2001); People v Pickens, 446 Mich 298, 303; 521 NW2d
797(1994).
A complete concession of guilt amounts to ineffective assistance of counsel. People v
Krysztopaniec, 170 Mich App 588, 596; 429 NW2d 828 (1988). However, a lawyer does not
-I!

e

render ineffective assistance by conceding certain points at trial, including eoneedmg-giiilL.of-.a-—,
lesser offense. People v Emerson (After Remand), 203 Mich App 345, 349; 512 NW2d 3 (1994).
During opening statement, defense counsel stated, “[ajfter you’ve heard all the evidence I
think you’ll be convinced that Mr.' Pennebaker is guilty of assaulting these young men with
knife, inappropriately, wrongfully there is no excuse for what he did. But that he never intended
at all to rob these young men.” During closing argument, defense counsel continued to focus on
the intent to rob element of the assault with intent to rob charges. Defense counsel stated,
defendant “is guilty of two counts of felonious assault, he is because that is what he did. But he
didn’t assault those boys intending to rob.”
It is clear from the record that defense counsel did not make a complete concession of
guilt, but rather defense counsel conceded that defendant was guilty of the lesser charged
offenses of felonious assault. Id. “The elements of felonious assault are (1) an. assault, (2) with a
dangerous weapon, and (3) with the intent to injure or place the victim in reasonable
apprehension of an immediate battery.” People v Avant, 235 Mich App 499, 505; 597 NW2d
864 (1999). Here, defendant was positively identified by both of the victims; defendant had a
knife with him when police stopped him; and defendant admitted, in a letter to the victims, that
he pulled a knife on both of them and both of them appeared to be scared. “When defense,
counsel . . . recognizes and candidly asserts the inevitable, he is often serving his client’s
interests best by bringing out the damaging information and thus lessening the impact.” People v
Wise, 134 Mich App 82, 98; 351 NW2d 255 (1984). Accordingly, defense counsel’s
performance was not objectively unreasonable; thus, defendant’s ineffective assistance of
counsel claim of error lacks merit.
Next, defendant argues that he is entitled to an additional 133 days of credit for time
served pursuant to MCL 769.1 lb. Defendant’s argument presents an issue of law that we review
de novo. People v Waclawski, 286 Mich App 634,688; 780 NW2d 321 (2009).
In People v Givans, 227 Mich App 113, 125-126; 575 NW2d 84 (1997), this Court held
that the defendant war; not entitled to credit for the time he served regarding a different crime,
because MCL 769.1 lb provides that a “defendant shall receive credit for the time he has served
before sentencing yor the offense of which he is convicted
According to the Presentence Investigation Report (PSIR), defendant was arrested on
April 18, 2013 for “B&B w/ intent” and “CS Poss. (Narc/Coc.) < 25 gr.” Defendant was
released on bond. Thereafter, on April 27, 2013, defendant was arrested for “Larceny $200$1000.” The court of jurisdiction in the April 18 and the April 27 case was the 12th District.
Thereafter, defendant committed the crimes herein and was arrested on June 30, 2013.
Defendant did not post bond for the crimes herein, and he was placed in jail. On October 29,
2013, defendant entered a plea of guilty in the 12th District cases, which reduced defendant’s
felony charges to misdemeanors. Defendant was sentenced to 133 days in jail for the April 18
charges, and he received 133 days’ credit for time served on the Aprii 27 charges. From June 30,
2013 to the sentencing date, April 24, 2014, defendant was incarcerated for 298 days. Defendant
only received credit for 165 days because the trial court found that the 133 days of jail, which
were associated with the April 18 and April 27 sentences, were served for those charges.

-2-

f

According to Givans, defendant was entitled to jail credit for the time between his arrest
in the current case (June 30, 2013) and his sentencing in the 12th District cases (November 27,
2013), which amounted to 150 days. Id. Defendant was also entitled to credit between the
conclusion of his sentence in the 12th District case and the disposition of this case, which
amounted to 15 days. Defendant was not entitled to jail credit for the time he served for the 12th
District convictions. Id. Accordingly, the trial court did not err when it only provided defendant
with 165 days time served.
Defendant also argues that “the denial of jail credit effectively resulted in consecutive
sentences.” Unpreserved errors are reviewed for plain error affecting a defendant’s substantial
rights. People v Corines, 460 Mich 750, 763-764; 597 NW2d 130 (1999). “Under the
concurrent sentence rule, one sentence may not be ordered to begin at the completion of another
sentence unless statutory authority provides otherwise.” Givans, 227 Mich App at 126.
However, because commencement of the sentence in this case was not delayed until the
completion of the sentence in the. 12th District cases, the concurrent sentence rule is not
implicated. Id. Thus, no plain error affecting defendant’s substantial rights exists.

!
I

t

i

!

Next, defendant argues that the trial court erred when it scored offense variables (OVs) 3
and 13. Unpreserved sentencing errors are reviewed for plain error affecting a defendant’s...
substantial rights. People v Meshell, 265 Mich App 616, 638; 696 NW2d 754 (2005).
Defendant argues that the trial court erred when it scored OV 3 at five points because the
record did not support that the victim’s injury to his arm was sustained as a direct result of
defendant’s conduct with the knife. A five-point score is warranted under OV 3 if the victim
sustains a “bodily injuiy not requiring medical treatment[.]” MCL 777.33(e). A five-point score
may be sustained for OV 3 if defendant is the factual cause of the victim’s injuries. People v
laidler,
491 Mich 339, 345; 817 NW2d 517 (2012).
,
\

/

Defendant also argues that ifthe Michigan Supreme Court was to find that the decision in
Alleyne v United States,___US
133 S Ct 2151; 186 L Ed-2d-3 i 4-(~20i 3)rapplies to criminal
sentencing in the state.courts of Michigan—and it has, see People v Lockridge,_Mich
__ NW2d___ (2.015)—then OV 3 was scored in error because OV 3 was scored based on
judicial fact finding. Unpreserved errors are reviewed for plain error affecting a defendant’s
substantial rights. Carines, 460 Mich at 763-764.

;

' We think it is clear that the trial court based its findings of an Injury through facts found
by the court, rathcrlhaTTaBmitted To WdefMdlaf or found by the jury. None of the crimes of
wlricFTaefendant was found guilty contained an element of injury, and defendant never admitted
to cutting one of the victims. Accordingly, we .remand this matter to the trial court for it to
determine whether defendant continues to seek resentencing, and if so, to resentence defendant
in accordance with Lockridge. See People v Stokes,___Mich App
NW 2d
(2015), slip op at^jp 8-9.
.5

\

*

Defendant also contends that the trial court erred when it scored OV 13 because the four
sentencing convictions arose from!a single incident, and they did not show a “pattern” of
felonious criminal activity involving three or more crimes against a person. OV 13 addresses a
continuing pattern of criminal behavior. MCL 777.43. Here, the trial court scored OV 13 at 25
-3i

Order

Michigan Supreme Court
Lansing, Michigan
Robert P. Young, Jr.,
Chiefjuscice

May 2, 2016

Stephen J. Markman
Brian K. Zahra
Bridget M. McCormack
David F. Viviano
Richard H. Bernstein
Joan L. Larsen,

152694 & (51)(52)

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

Justices

SC: 152694

v

rOA- 1771 17

Jackson CC: 13-004717-FC
DANNY RAY PENNEBAKER,
Defendant-Appellant.

On order of the Court, the motion for immediate consideration and motion to ...
expedite are GRANTED. The application for leave to appeal the October 22, 2015
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
May 2,2016
a0418

.

1

the alleged error, [she] would have had a reasonably likely chance of acquittal” MCR
6.508(D)(3)(b)(i). Here, Defendant has already raised the issue of ineffective assistance of
counsel and as such is barred.
THEREFORE, Defendant’s Motion is DENIED.
. ITIS SO ORDERED-on this / 7day ©f April, 2019.

Certificate of Service:
1 hereby certify that a copy of this order was
sent to the parties via U.S. mail this
day
of April. 2019.

Hon. Thomas D. Wilson

7

Circuit Judge

kkkj.UA A <3 .t/Jt
Brittany Lawe, Court Officer

<%

tV

